                                               NAnONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESnGAnONS

                                         CLOSEOUT MEMORANDUM

Case Number: A-09070064                                                                    Page 1 of 1



     We received several allegations against a PI and co-PI l (investigators) on an awarded NSF
     proposaL 2 It was alleged the investigators falsified data and fabricated information in a report to
     NSF and used inappropriate protocol by utilizing vertebrate animals in the laboratory.

     With respect to the alleged falsified data and fabricated information, we determined there was no
     substance to the allegation.

    With respect to the alleged inappropriate protocol related to vertebrate animal research, we
    requested and received a report from Office of Laboratory Animal Welfare (OLAW)3 that
    included its investigation into this allegation. The investigation determined that some of the
    research practices by the investigators while using vertebrate animals for research supported by
    the National Institute of Health were inappropriate. As a result, the university suspended the
    research while the investigators and students were retrained and while a new protocol was
    submitted for Institutional Animal Care and Use Committee approvaL Following the completion.
    of the retraining and new protocol acceptance, the investigators were reprimanded and the
    laboratory was placed under enhanced veterinary oversight. Further, OLAW instructed the
    institution to notify all other agencies involved in funding this research.
                                                                           "
    Because NSF was not notified of this matter, we wrote to the institution4 requesting information
    related to any involvement of the NSF funded activities in the inappropriate vertebrate animal
    research practices identified by OLAW. The institution's response that showed the investigators
    received NSF funding related to the inappropriate research however NSF did not directly fund
    the inappropriate research.

    Our review determined that OLAW's actions adequately addressed the animal research protocol
    deficiencies. However. we wrote a letter to remind the institution of its responsibility to notify
    NSF whenever violations of animal care regulations occur with research funded by NSF.

    This case is closed and no further action will be taken.
